OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S ALBANIAN
JUSTICE SECTOR
STRENGTHENING PROJECT

AUDIT REPORT NO. 9-182-13-004-P
SEPTEMBER 13, 2013




WASHINGTON, D.C.
Office of Inspector General


September 13, 2013

MEMORANDUM

TO:                  USAID/Albania, Mission Director, Jim N. Barnhart

FROM:                IG/A/PA Director, Steven Ramonas /s/

SUBJECT:             Audit of USAID’s Albanian Justice Sector Strengthening Project
                     (Report No. 9-182-13-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments and included your response in Appendix II.

The report contains four recommendations to help strengthen mission management and the
sustainability of project achievements. Recent developments represent final action taken on
Recommendation 2, and the mission has made management decisions on the remaining
recommendations. Please provide the Audit Performance and Compliance Division of USAID’s
Office of the Chief Financial Officer with evidence of final action to close the three open
recommendations.

Thank you for the cooperation and courtesy extended to my staff during this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Project Contributed Significantly to Mission Intermediate Results ......................................... 4

     Some Project Activities May Not Be Fully Sustainable ......................................................... 7

     Mission Did Not Have Performance Monitoring Plan ........................................................... 10

Evaluation of Management Comments.................................................................................. 11

Appendix I—Scope and Methodology ................................................................................... 12

Appendix II—Management Comments .................................................................................. 14




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
CD              compact disc
CDCS            country development cooperation strategy
CLE             continuing legal education
CSO             civil society organization
EU              European Union
FY              fiscal year
IR              intermediate result
IT              information technology
JuST            Justice Sector Strengthening Project
NCA             National Chamber of Advocates
NGO             nongovernmental organization
OIG             Office of Inspector General
PMP             performance management plan
SUMMARY OF RESULTS
In 1991 the East European nation of Albania held its first multiparty democratic election after
more than four decades of Communist rule. However, according to the Central Intelligence
Agency’s The World Factbook, Albania still faces high unemployment, corruption, weak
infrastructure, organized crime, and persistent claims of electoral fraud.

In the justice sector, use of judges’ private chambers instead of public courtrooms for hearings
and a lack of competency and professionalism among attorneys contribute to opportunities for
judges and attorneys to engage in corrupt activities. The important anticorruption and watchdog
roles that civil society organizations (CSOs) and the media play are limited because the
organizations generally are weak and media is not fully independent.

To address these issues, USAID/Albania’s country development cooperation strategy (CDCS)
for 2011-2015 has the development objective of “strengthened rule of law and improved
governance.” The CDCS established the following three intermediate results (IRs)1 to achieve
this objective in the justice sector:

    Improve the enabling environment for policy reform and planning.
    Enhance citizen oversight and transparency.
    Upgrade performance and management capabilities.

USAID launched the Albanian Justice Sector Strengthening (JuST) Project in October 2010 to
improve the performance of the Albanian justice sector and strengthen the watchdog and
anticorruption role of civic organizations and the media. To implement it, the mission awarded a
5-year (October 2010-September 2015) cost-plus-fixed-fee contract of about $9 million to
Chemonics International Inc. As of March 31, 2013, midway through the contract, the mission
had obligated about $6.2 million and spent about $4.1 million on the project.

The Performance Audits Division of the Office of Inspector General (OIG) conducted this audit
to determine whether the project is contributing to the three IRs by improving the enabling
environment for policy reform and planning, enhancing transparency and citizen oversight, and
upgrading performance and management capabilities in the justice sector. We found that the
project made significant contributions to these IRs by implementing a number of targeted
activities (page 4), such as the examples discussed below.

Improving the Enabling Environment for Policy Reform and Planning. The project worked
with Albanian officials to make legislative changes, such as new laws mandating the use of
digital audio recordings in courtrooms and continuing legal education (CLE) for the legal
profession. Project officials also held court leadership conferences with district and appellate
court judges, Supreme Court justices, and officials from government agencies, the National
Chamber of Advocates (NCA),2 civil society and media organizations, and others. These
activities helped bring needed reform and encouraged discussion of judicial issues and the
exchange of ideas.

1
  According to ADS 201.3.3.3(b), “A (development objective] is the most ambitious result that a Mission,
together with its development partners, can affect or achieve.” IRs are the set of results that together are
sufficient to achieve the development objective.
2
  The National Chamber of Advocates is the Albanian equivalent to the American Bar Association.


                                                                                                          1
Enhancing Citizen Oversight and Transparency. According to project reports, JuST’s most
visible and important achievement is the installation of digital audio recording systems in
Albanian courts. As of March 2013, JuST installed the systems in half of the courts and planned
to have all courts equipped by the end of the year. Because the project installed the systems
only in courtrooms and not in judges’
offices, judges moved hearings from their
private chambers to public courtrooms to
benefit from audio recording, thus
increasing        transparency       and
accountability. Judges credited digital
audio recording with improving the
behavior of judges and lawyers in the
courtroom, and increasing the public’s
confidence in the justice sector.

JuST supported investigative journalism
by sponsoring the development of “Law
School for Journalists.” The project also
invited 15 journalists to be justice
reporting fellows and trained them to
research and write about corruption.
Participating journalists formed Albanian
Journalists for Justice, an association
that launched an Internet site—with the
project’s help—to publish fair, accurate
investigative reporting and to provide a
forum for public comment. Albanian
journalists interviewed said the project
had improved their ability to report on
corruption. The project also gave grants
and training to CSOs.                        Posters like this are placed in courthouses to
                                             inform the public. (Photo by OIG, April 2013)

Upgrading Performance and Management Capabilities. Project officials worked with NCA to
establish and jointly fund the country’s first CLE programs. The first two, with the Durres and
Vlora regional chambers, had more than 160 training sessions on 12 legal subjects, such as
criminal and civil law, ethics, commercial law, and legal reasoning and writing. By June 2012,
322 people had attended—more than 70 percent of all lawyers and assistants registered in the
two chambers. In March 2013 the project launched a third CLE program with the Fier regional
chamber; the OIG audit team observed a training session there in the following month that was
well attended. Additionally, the project entered into a memorandum of understanding with the
dean of the University of Tirana law school to assist in creating a legal clinic; developed a legal
database of Supreme Court decisions; gave support to the Union of Albanian Judges; installed
a courtroom calendar management system; and introduced court-connected mediation
programs.

While JuST made significant contributions, the following areas of concern should be addressed.

   Some project activities may not be fully sustainable (page 7). The mission should take
   action to foster the sustainability of the project’s digital audio recording, mediation, and CLE
   activities.


                                                                                                 2
   The mission did not have a performance management plan (PMP) (page 10).

To address these concerns, the report recommends that USAID/Albania:

1. Implement a written plan to help make sure the Albanian Government has an adequate,
   predictable flow of funds to sustain the court information technology infrastructure on which
   digital audio recording depends (page 8).

2. Implement a written plan to work with the Albanian Government to resolve the impasse
   within the Chamber of Mediators and to establish it as a functioning organization (page 9).

3. Develop a written plan for the National Chamber of Advocates to create a training
   department capable of managing a nationwide continuing legal education program. That
   plan should (1) set clear milestones and (2) condition future USAID support on achieving
   those milestones (page 9).

4. Implement a performance management plan by the fall of 2013 (page 10).

Detailed findings appear in the following section, and Appendix I contains information on the
scope and methodology. Our evaluation of management comments is on page 11 of the report,
and the full text of management comments appears in Appendix II.




  This courtroom in Korca has a digital audio recording system that the JuST Project helped
  install. (Photo by OIG, April 2013)




                                                                                              3
AUDIT FINDINGS
Project Contributed Significantly to
Mission Intermediate Results
The project activities described below are grouped by the IR they fall under in the mission’s
CDCS. They provide evidence that the project contributed significantly to the development
objective of “strengthened rule of law and improved governance” in the justice sector.

IR1.1: Improving the Enabling Environment for Policy Reform and Planning

Law amended to mandate digital audio recording in courts. The project’s signature
achievement illustrates its approach to reforming policy. The Albanian Minister of Justice told us
that some judges did not want digital audio recording in their courtrooms; he said the project’s
chief of party was his “personal hero” because of his skill in contacting court leaders to pave the
way for its acceptance.

The project’s staff also drafted procedures to ensure consistent digital audio recording practices,
which the Ministry of Justice used as the basis for a June 2012 instruction it issued on
implementation of digital audio recording throughout the court system, according to project
reporting. In April 2013 the Albanian Parliament passed legislation that project staff helped draft,
making audio recordings official court records. The deputy chairman of the High Council of
Justice said the project has had a direct bottom-up impact on “changing the rules of the game”
at a practical level in courtrooms, which then put pressure on officials to change rules and laws.

Law enacted mandating CLE. The project worked with NCA leaders to draft language for
amendments to the “Law on the Legal Profession” to make CLE mandatory for all lawyers.
These were enacted in September 2012 as drafted, and they will bring Albania in line with the
legal education practices of most other European countries, according to a project report.

Court leadership conferences. IR1.1 states: “In the justice sector, USAID will promote
improved dialogue through Court Leadership Conferences, in order to improve planning and
implementation capacities and to encourage participatory policy reform processes.” The project
held a leadership conference in December 2010 that introduced the project to officials in
Albania’s justice sector, according to project reports, and a second in April 2012 that focused on
improving court operations. The project also plans regional leadership conferences for each
appellate district after all courts in the district have digital audio recording installed. It held the
first in December 2012 in Korca and the second in March 2013 in Durres. The chief district court
judge in Korca said many people participated and had an active discussion about problems.

IR1.2: Enhancing Citizen Oversight and Transparency

Digital audio recording. IR1.2.1 states in part: “In the judiciary, USAID will introduce verbatim
recording, publication of court proceedings, and maximization of court room utilization where the
hearings are truly open to the public.” Installing digital audio recording only in courtrooms
incentivizes judges to move sessions from their offices to courtrooms, according to the chief of
party, thus increasing transparency and accountability. By March 2013, the project reported that
it had installed audio recording systems in half of Albania’s courts and planned to have all courts



                                                                                                     4
equipped by the end of the calendar year. The chief judge of Pogradec District Court said
project staff responded to his needs during installation and lived up to an Albanian saying, “They
worked for me as though they were working for themselves.” The chief judge of Tirana District
Court said the effect that digital audio recording has in moving hearings into courtrooms and out
of judges’ chambers goes a long way toward increasing transparency.

Competitive “Grants under Contract” program. IR1.2.2 states that USAID will support CSOs
in their advocacy for key reforms and regulatory changes and their “monitoring and watchdog
type activities.” The project implemented a competitive grant program of about $500,000 that
focused on anticorruption and the courts. Its October 2011 quarterly report states that it
developed an online forum to facilitate CSO cooperation, launched its first solicitation for grants
in the summer of 2011, and conducted training to help CSOs with their proposals.

By March 2013, according to the contracting officer’s representative, the project had awarded a
grant to a coalition of three CSOs and grants to six other CSOs, for a total of seven grants. The
executive director of one CSO said she appreciated the project’s training on writing detailed and
results-oriented grant applications, and that project staff meet with her staff every month to help
build employee capacity in finance, report writing, and evaluations. She also credited the
contracting officer’s representative with being actively engaged in discussions and meetings.

Support for investigative journalism. A key goal of IR1.2 is that USAID support monitoring
and watchdog types of activities implemented by the media. The project supported investigative
journalism by sponsoring the development of “Law School for Journalists.” In addition, the
project invited 15 journalists to be justice reporting fellows and trained them to research and
write about corruption. Participating journalists formed Albanian Journalists for Justice, an
association that launched an Internet site—with the project’s help—to publish fair, accurate
investigative reporting and to provide a forum for public comment. In January 2013, the U.S.
Ambassador and mission director introduced the association and Web site. Journalists we
spoke with were very happy with the project’s support and said the training was important in
improving their ability to report on corruption in Albania.

IR1.3: Upgrading Performance and Management Capabilities

CLE pilot program. IR1.3.1 states that USAID will establish a CLE program for attorneys.
According to project reports, project officials worked with NCA to establish and jointly fund
Albania’s first CLE programs with the Durres and Vlora regional chambers. Classes ran from fall
2011 through June 2012 and had more than 160 training sessions on 12 legal subjects, such as
criminal and civil law, ethics, commercial law, and legal writing. By June 2012, 322 people had
attended—more than 70 percent of all lawyers and assistants registered in the two chambers. In
March 2013 the project launched a third CLE program with the Fier regional chamber; the OIG
audit team observed a training session there the following month that was well attended. The
head of continuing education for the project’s training subcontractor, Albanian Center for Legal
Trainings and Studies, told us the project brought in reputable trainers—respected law school
professors with good reputations—whom lawyers want to hear.

Assist in creating a legal clinic at the University of Tirana law school. IR1.3.1 states:
“USAID will assist in creating a legal clinic within the Public Law School to introduce critical
thinking and provide hands-on case practice.” In its first two years, the project reported that
progress was slow “ostensibly due to other pending curricular changes” at the school. The chief
of party told us he is much more optimistic now because the new dean at the school genuinely
wants the legal clinic. As of March 2013, the school reported that more than 95 students had


                                                                                                 5
registered for three CLE programs, according to a project report. The same month, the chief of
party and the dean signed a memorandum of understanding for project support in renovating
rooms at the school for the legal clinic and a mock courtroom.

Assist magistrates’ school in developing database of Supreme Court decisions. IR1.3.1
states: “USAID will also enhance legal research capacities for both the judiciary and practicing
attorneys through the creation of a database of catalogued Supreme Court decisions and
ratified conventions.” The director of the School of Magistrates told us she was very satisfied
with project staff, who she said helped develop a searchable database of Supreme Court
decisions and in addition helped her develop control procedures for the school’s entrance exam.
She said they were not bureaucrats interested only in contract requirements, but were genuinely
interested in a judicial branch that functions better with less opportunity for corruption.

Support to Union of Albanian Judges. IR1.3.1 states: “USAID will provide technical support to
the judges’ associations to provide them with the ability to manage their funds, conduct strategic
planning, access funding within Albania, and increase their advocacy skills so that they can play
a key role in judicial reform issues.” The project reported that it worked with the Union of
Albanian Judges on strategic planning, developing professional staff, obtaining office space,
registering with tax authorities, and convening a conference of judges to address challenges
facing the justice sector. By March 2013, according to the project report, the number of judges
who belonged to the group had increased to 175 from about 45 when it began. The union
president said JuST was the strongest project he has seen in 20 years due to the concrete
“revolutionary” changes it is bringing to Albania’s judicial system.

Install courtroom calendar management system. IR1.3.2 states: “[N]oting the inefficient use
of court space, USAID will provide technical assistance to create a court room calendar
management program and to improve the performance of the court chancellor, the court
chairman and court administrative staff.” The project reported that it developed courtroom-
scheduling software (the e-calendar system) and installed it in 11 courts by March 2013, linking
it with audio recording data to enable reporting to the Ministry of Justice on the use of digital
audio recording by court, courtroom, judge, or case type. The deputy chair of the High Council
of Justice told us the system was a significant achievement, and, if a district has enough
courtrooms, judges no longer have an excuse to use their private chambers because they can
now see which courtrooms are available and make a reservation.

Assistance introducing court-annexed mediation programs. IR1.3.2 states: “In order to
address a severe court backlog, USAID will assist in introducing a court-annexed mediation
program in a selected number of courts.” The project launched two court-connected mediation
programs in the district courts of Durres and Korca in the summer of 2011. The mission reported
that the programs accepted 216 cases by the end of 2012, of which 147 were resolved in
10 days on average—compared with an average of 57 days for traditional litigation. In
October 2012, the project launched a third program through a grant to a local NGO to
implement its proposed mediation and restorative justice program. According to a project report,
these programs give people another option to resolve conflicts without resorting to courts, thus
reducing court case backlogs.




                                                                                                6
Some Project Activities May Not Be
Fully Sustainable
USAID policy emphasizes the sustainability of development accomplishments. In fact, one of
seven operational principles in USAID’s Policy Framework (2011-2015) is to “build in
sustainability from the start.”

The JuST contract requires that design of project assistance “favor long-term solutions which
could be performed by or taken over by existing Albanian institutions and organizations” when
possible. According to the contracting officer’s representative, Chemonics demonstrated a
strong commitment to sustainability and has undertaken efforts beyond the contract’s
requirements to make sure activities were sustainable.

However, Chemonics and USAID/Albania officials reported three sustainability concerns that we
validated relating to court information technology (IT) infrastructure, mediation, and CLE.

Court IT Infrastructure. The mission’s November 2012 performance results assessment
identifies the need for the Albanian Government to develop a long-term strategy for maintaining
the IT infrastructure that the project’s signature achievement—equipping courts with digital
audio recording—depends on.

        Because the audio recording system is integrated into the current case
        management system, for the audio recording to achieve its full potential, the case
        management system needs continued investments, specifically related to the
        connectivity between the district courts and appellate courts as well as the court
        websites. Until this is done, the courts will rely on CDs [compact discs] to
        distribute court hearing records. The project has raised this issue with the
        Ministry and steps are being taken to address it. Also the Government needs to
        adopt a long-term strategy to maintain the IT infrastructure to ensure long-term
        success.

As early as July 2011, the project reported that it faced a challenge with the “IT and
communications infrastructure of existing courts”3 and noted that “in some courthouses, existing
computers may be too antiquated to support the new technology and unanticipated
infrastructure upgrades may be required.” After assessing the technical infrastructure of every
Albanian courtroom, the project team concluded that “full systems would have to be procured,
rather than using existing (often antiquated) computer servers and workstations.”
Subsequently, in July 2012, the project reported:

         [M]uch depends on Albanian Government follow-through with plans to
        modernize server capacity and network connectivity. While the Ministry of Justice
        has made progress . . . this area remains a potential challenge for full
        implementation, especially since the Ministry must rely on outside firms for much
        of this work. Moreover, budgets remain tight and there are no guarantees that
        routine upgrading of the IT infrastructure will occur.




3
 For purposes of this report, “IT infrastructure” includes communications (network connectivity) as well as
physical (computers and servers) infrastructure and the staff resources needed to maintain it.


                                                                                                         7
During our fieldwork in April 2013, we observed that judges and court administrative personnel
were using CDs to access audio-recorded sessions. The project chief of party confirmed that
current IT infrastructure still does not allow a judge to access audio recordings directly from a
central database; therefore, they rely on CDs. The mission’s management comments clarify that
judges and administrative personnel of a given court can access audio recordings directly from
their own court’s server, but need a CD to get recordings from other courts. For example, an
appeals court judge who needs to review an audio recording from a lower court cannot access it
with his or her computer directly from a central database, and so must get a CD of the recording
from the lower court.

According to the chief of party, digital audio recording requires the Judicial Budget Office and
the Ministry of Justice to coordinate on upgrading network standards and productivity. While the
budget office holds the purse strings, the ministry oversees the IT function and relies on outside
firms and short-term contracts to maintain the infrastructure. The ministry’s IT director told us
that the court budget has not included the necessary resources to modernize computer servers
and to update and maintain court IT infrastructure.

The mission’s management comments clarify that the problem does not stem from the Judicial
Budget Office, which they said does a satisfactory job of assessing and planning for routine IT
infrastructure upgrades and other IT investments. Instead, the comments state that the problem
lies with the actual funding, and that the Ministry of Finance routinely cuts the court budget
proposed by the Judicial Budget Office before the budget arrives in Parliament for approval.

The Albanian Government’s insufficient funding of court IT infrastructure means that the digital
audio recording installed by the JuST Project may not maintain its effectiveness and realize its
full potential to help the Albanian judiciary. The ability of the courts to address this problem is
limited, the chief of party said, because they can keep only about 10 percent of the fees they
generate, with the rest going back to the government’s general fund. He noted that, as a matter
of judicial independence, some countries have a constitutional provision that requires a certain
percentage of the state budget—typically 3 to 4 percent—be dedicated to court administration.
To address this situation, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Albania implement a written plan to
   help make sure the Albanian Government has an adequate, predictable flow of funds to
   sustain the court information technology infrastructure on which digital audio recording
   depends.

Mediation. To provide an alternative to having judges resolve cases in courts, which have
significant backlogs, the contract requires Chemonics to implement a demonstration mediation
program in three district courts to resolve appropriate cases by a mediator instead. Although the
project did this successfully, mediation is still relatively unknown and underused in Albania,
according to the mission’s November 2012 performance results assessment. The project took
an important step toward addressing sustainability, the assessment reported, “by bringing
together newly licensed mediators to form the Chamber of Mediators, the foundation for a new
profession.”

According to a new Albanian law enacted February 2011, the Chamber of Mediators is required
to regulate the profession, and the JuST Project has been trying to help it do so. However, by
the end of 2012, efforts to help establish the chamber reached an impasse because of
disagreement over member voting rights. A provision in the new law enables entities, in addition
to individuals, to be licensed as mediators. As explained in a February 2013 memo by the


                                                                                                 8
project’s legal specialist, some mediators think that people working for a licensed entity should
have individual voting rights, even if they do not have a mediator’s license. Other mediators
think there should be only one vote per license, and therefore unlicensed mediators working for
a licensed entity should not have individual voting rights. According to the memo, the issue of
whether people within a licensed entity should have the same voting rights as licensed
individuals is one of several potential problems stemming from a legal provision that enables
entities, in addition to mediators, to obtain a professional mediator’s license.

The absence of a functioning Chamber of Mediators to regulate the new profession places the
sustainability of the project’s mediation results at risk. Therefore, we make the following
recommendation.

   Recommendation 2. We recommend that USAID/Albania implement a written plan to
   work with the Albanian Government to resolve the impasse within the Chamber of
   Mediators and to establish it as a functioning organization.

Continuing Legal Education. NCA is the Albanian equivalent to the American Bar Association.
Having it assume responsibility for CLE programs that the project started is key to their
sustainability. To make sure this would happen, project staff helped draft language for
amendments to the Law on the Legal Profession, enacted in September 2012, making NCA
responsible for establishing a mandatory CLE program for all lawyers. The law requires NCA to
establish a national school of advocates within 1 year to administer the program.

Despite this requirement, the project’s chief of party said, NCA has not taken the steps
one would expect to see in preparation for assuming management of the CLE activities and
administering a nationwide CLE program by this fall. The project’s September 2011 annual
report states, “To date, NCA has failed to carry out its statutorily-provided duties of overseeing
lawyer discipline and providing continuing legal education . . . to its members at a satisfactory
level. NCA has organized ad hoc trainings and seminars for a very limited number of practicing
lawyers but no well-established and organized CLE is in place.”

The mission’s November 2012 performance results assessment also noted that the lack of a
training department within the NCA posed a serious threat to the sustainability of CLE and
would make the implementation of a nationwide program difficult. These problems still had not
been resolved in April 2013 when we conducted this audit.

It is not clear why NCA has not taken the administrative and managerial steps needed to hire
staff and to establish a training department capable of taking over the CLE activities and
managing a nationwide CLE program. EU and project officials we spoke with said they did not
think insufficient funding was the problem; one JuST Project official said Albanian lawyers
already pay NCA about $1,000 a year in membership fees. This point was echoed by NCA’s
chairman, who said the organization could raise money through license and membership fees.

If NCA cannot meet its statutory duty, the sustainability of CLE activities would be at risk.
Therefore, we make the following recommendation.

   Recommendation 3. We recommend that USAID/Albania develop a written plan for the
   National Chamber of Advocates to create a training department capable of managing a
   nationwide continuing legal education program. That plan should (1) set clear milestones
   and (2) condition future USAID support on achieving those milestones.



                                                                                                9
Mission Did Not Have Performance
Monitoring Plan
According to USAID policy at Automated Directives System (ADS) 203.3.3, “Performance
Management Plan,” a mission’s PMP helps it monitor, evaluate, and analyze progress toward
achieving results identified in its CDCS and project LogFrame.4 The ADS provision requires
missions to prepare a mission-wide PMP that includes performance indicators, baseline data,
and targets for the CDCS results framework and project LogFrames. The provision includes the
following criteria for when a mission should develop its PMP:

       Experience has shown that four to six months after CDCS approval is the right
       timeframe to develop PMPs that include well-defined indicators at the Goal,
       [development objective], and [intermediate result] level.

The mission has not had a PMP since about 2002, the program officer said. It has been relying
primarily on project PMPs and mission portfolio reviews to track progress and contributions to
mission goals. She said the ADS requirement to develop a PMP is not triggered until the
mission’s CDCS is approved, and USAID/Albania’s CDCS is dated November 2011. However,
she agreed that the mission had not met the “four to six months after CDCS approval” criteria
set forth in ADS. If it had, it would have had a PMP by the spring of 2012.

The mission director attributed some of the delay to uncertainty regarding USAID’s transitional
strategy and plans for regionalization; the Agency has proposed changing USAID/Albania into
an office by fiscal year 2014. Nevertheless, the mission director and program officer said the
mission plans to have a PMP by this fall to comply with ADS and has taken steps—including
scheduling training in July 2013—to make that happen.

Because the mission does not have a PMP, the mission is not receiving the benefits described
in ADS 203.3.3. Therefore, we make the following recommendation.

    Recommendation 4. We recommend that USAID/Albania implement a performance
    management plan by the fall of 2013.




4
  ADS 200.6 defines LogFrame as a logical framework that is a rigorous methodology used when
designing projects to focus on the links among project inputs, outputs, and desired outcomes.


                                                                                            10
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Albania agreed with Recommendations 1, 3, and 4.
Recent developments represent final action taken on Recommendation 2, and the mission has
made management decisions on the remaining recommendations. We acknowledge these
management decisions.

Recommendation 1. USAID/Albania will include a special covenant in its bilateral development
objective agreement requiring the Albanian Government to retain and sustain USAID
investments made through the JuST Project. It expects the agreement will be signed by
October 30, 2013.

Recommendation 2. USAID/Albania states that the impasse over member voting rights was
resolved in July 2013 by a decision of the Ministry of Justice and that the Chamber of Mediators
is established. As a result, final action has been taken on this recommendation.

Recommendation 3. USAID/Albania agreed to develop a written plan with clear milestones for
creating the training department by December 31, 2013, and to terminate assistance if NCA fails
to achieve them.

Recommendation 4. USAID/Albania agreed to have a cleared and approved PMP in place by
November 30, 2013.

We appreciate the mission’s suggestions for clarifying our report and have revised the report
accordingly.

The Audit Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
will make a determination of final action on completion of the corrective actions. The mission’s
written comments on the draft report are included in their entirety as Appendix II.




                                                                                             11
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The objective of the audit was to determine whether USAID/Albania’s JuST Project was
improving the enabling environment for policy reform and planning, enhancing citizen oversight
and transparency, and upgrading performance and management capabilities in the justice
sector. USAID/Albania is implementing the project through a 5-year cost-plus-fixed-fee contract
of about $9 million to Chemonics from October 2010 to September 2015. The primary objective
is to improve the performance of the justice sector and to strengthen the watchdog and
anticorruption roles of civic organizations and the media.

The contract has three components: Court Transparency, Fairness, and Efficiency; Civic
Engagement; and Education of the Legal Profession. The audit evaluated the project’s progress
in all three. It also tested data the contractor used to measure progress toward the project’s
goals, as described at the end of this appendix. Because the performance indicators we tested
are qualitative rather than financial in nature, the requirement to identify the amount tested in
relation to the total amount audited is not applicable to this audit.

OIG conducted audit fieldwork in Albania from April 4 to April 30, 2013. We conducted our
fieldwork at USAID/Albania and the implementing partner’s office in Tirana, and at Albanian
Government agencies and beneficiary sites in and around the cities of Tirana, Pogradec,
Gjirokaster, Korca, Fier, and Durres. The methodology section below lists organizations where
we conducted audit work. Our audit covered the period from mission planning for the project
until the end of our fieldwork on April 30, 2013, about halfway through the 5-year performance
period.

In planning and performing the audit, we gained an understanding of the project’s design,
principal activities, and progress toward its goals. We assessed management activities and the
significant controls established by USAID/Albania and Chemonics, including the contract and
accompanying modifications; annual work plans; PMPs; annual and quarterly progress reports;
and mission portfolio reviews. We reviewed USAID/Albania’s mission order for monitoring and
evaluation, its project approval document, its contractor performance assessment reports for
fiscal years 2011 and 2012 of the project, and selected contracting officer’s representative trip
reports to project activity sites. We assessed the risk of potential problems related to
sustainability and gender inclusion, and tested data Chemonics used to measure progress
toward the project’s goals as described below.

Methodology
To answer the audit objective, we gathered a broad range of testimonial, documentary, and
observational evidence to inform our determination as to whether project results were



                                                                                              12
                                                                                             Appendix I


contributing to related intermediate results in the mission’s CDCS. We tracked how
USAID/Albania and Chemonics measured progress by reviewing key project documents, such
as the contractor’s annual work plans, PMPs, and quarterly and annual progress reports. We
interviewed officials from USAID/Albania, including representatives from the program,
contracting, and technical (rule of law) offices. We also interviewed the contractor’s chief of
party and other staff members, including component leads.

To learn how stakeholders and beneficiaries view the project’s contributions, we conducted site
visits and interviews to gather additional observational and testimonial evidence from
stakeholders and beneficiaries including:

    The High Council of Justice, the Ministry of Justice, and the Judicial Budget Office

    Judges and administrative personnel from the Tirana, Pogradec, Korca, and Durres district
    courts, and the Tirana, Korca and Durres appellate courts

    A Supreme Court justice

    The Magistrates’ School, NCA, a regional Chamber of Advocates (Fier), and the University
    of Tirana law school

    The Union of Albanian Judges

    The Journalists for Justice Association

    NGO/civil society officials from Partners Albania, the Center for Civic and Legal Initiatives
    (and students), the Albanian Foundation for Conflict Resolution, Community Center of
    Gjirokaster, and the Albanian Center for Legal Trainings and Studies

    CLE pilot program law professors

    Mediation beneficiaries

    The team lead for the EU’s Euralius Project

    The head of the Rule of Law and Human Rights Department of the Office of Security and
    Cooperation in Europe’s Tirana office

We tested a judgmental sample (not projectable to a broader population) of data the contractor
used to measure and report progress on its performance indicators and verified reliability and
validity. Data sampled covered indicators from each project component and came from the
project’s FY 2012 annual implementation report and January-March 2013 quarterly progress
report. We selected 17 data from 9 of 22 performance indicators reported in the contractor’s
February 2013 PMP,5 which covered about 40 percent of the indicators.


5
  The Consolidated List of Indicators shown on page 14 of the February 2013 PMP actually shows
28 performance indicators, but we subtracted 2 index indicators (“World Band Governance Indicator” and
“NGO Sustainability Index”) and 4 indicators relating to establishing a legal clinic at the University of
Tirana law school, for which no actual data has yet been reported.


                                                                                                      13
                                                                                     Appendix II



MANAGEMENT COMMENTS



                                                           August 28, 2013

Memorandum

To:           IG/A/PA Director, Steven Ramonas

From:         USAID/Albania Mission Director, Jim N. Barnhart /s/

Subject:      Management comments of Audit of USAID’s Albanian Justice Sector
              Strengthening Project (Report No. 9-182-13-00X-P)


I would like to thank you for the draft audit report on USAID/Albania’s Justice Sector
Strengthening Project (JUST), and the opportunity to provide comment before the report is
finalized.

We very much appreciated the collegial spirit, honest discussions and hard work that were
demonstrated by IG staff during their one month stay in Albania.

As a general comment, I note that the language of the draft report does not capture a main
finding that was expressed during the exit conference in-country and during the exit
teleconference: that the JUST project has been remarkably successful, has made substantial
improvements to Albania’s judicial system in a challenging environment, and is highly
appreciated by counterparts across the board. I believe it necessary that the final report should
effectively communicate this essential finding. It is also important to provide background on
what has enabled this success: sound and careful project design, dedicated and capable
project leadership, and very pro-active engagement by Mission staff with Government of Albania
counterparts, Albanian judges and Albanian lawyers.

Please find USAID/Albania’s specific comments to recommendations below.




                                                                                              14
                                                                                        Appendix II


Recommendation 1. We recommend that USAID/Albania implement a written plan to help
make sure the Albanian Government has an adequate, predictable flow of funds to sustain the
court information technology

       USAID/Albania’s response: We agree with the recommendation. The Mission will
       require the Government of Albania’s commitment to the sustainability of USAID’s efforts
       through the signing of the bilateral Development Objective Agreement (DOAG). The
       DOAG will include a Special Covenant that requires the government to retain and
       sustain USAID investments made through the JuST project. The DOAG will be signed
       by October 30, 2013.

As the audit report correctly points out, GOA funding for court IT infrastructure on which audio
recording depends is not sufficient. The concern is specifically with computers, server capacity,
network connectivity and the reliance on CDs for accessing court audio records.

We wish to clarify that the required IT maintenance and upgrade to which this report is referring
is not specific to the Digital Audio Recording (DAR). Thanks to rapid advancement in IT
technologies, the DAR that is being implemented in Albania software with low operating
requirements, meaning it does not rely on any special operators or equipment other than those
routinely used by the courts in their everyday business, such as computers, workstations and
servers, which Albanian courts have had in place for over ten years. Although not adequately
funded, maintenance and upgrade has not proven to be a meaningful impediment to another
existing IT system, the electronic case management system (ICMIS), which has been in place in
the courts for over 5 years now, and which relies on the same IT equipment as audio recording.

In addition, we wish to highlight that the GOA has become increasingly more aware of the
importance of IT investments in the courts, including operations and maintenance. The
improvement of court IT infrastructure is already amongst the priorities of MOJ as laid out in its
Strategic Plan of 2011-2013. The MOJ has established a special IT Directorate, currently
composed of 7 persons, that covers court IT infrastructure. Contracts with specialized IT private
companies for the maintenance and improvement of the court IT infrastructure are in place and
are funded through the MOJ budget. The Judicial Budget Office’s assessment and planning for
routine IT infrastructure upgrades and other IT investments are satisfactory, with a positive trend
in actual funding. Thus, as of March 2013, implementing legislation has made it possible for the
courts to keep 10% of their service fees, a provision that had been in place for a long time, but
which had not been implemented before due to a lack of government action.

We plan to continue work with the Judicial Budget Office and the MOJ to highlight the
importance of adequate planning and funding for court IT infrastructure, focusing particularly on
the issue of court interconnectivity, so that judges of other courts can access the recordings of a
different court directly from their computers without relying on CD media.

We wish to recommend three clarifications to the report regarding details of court IT
Infrastructure:

The second sentence in the first paragraph on page 5 states, “The project chief of party
confirmed that current IT infrastructure still does not allow a judge to access audio recordings
directly from a central database therefore, they rely on CDs.” We wish to clarify this is accurate
in referring only to judges of other courts (for example, those of the courts of appeals) who need
to access audio recordings of a different, lower level court. All judges and administrative
personnel of a given court, however, do have access to all of the recordings of that same court,


                                                                                                15
                                                                                         Appendix II


as the audio files are stored in the main server of the court. This distinction is important.

The first sentence of the second paragraph on page 5 states, “According to the Ministry’s IT
director, the Judicial Budget Office’s budget for courts has not included the necessary resources
to modernize computer servers and update and maintain court IT infrastructure.” As explained
above, the problem lies with the actual funding, and not with the planning of the Judicial Budget
Office, which we have found to be exercise sound budgetary practices. The court budget
complied by the Judicial Budget Office is cut routinely by the Ministry of Finance before it arrives
for approval in Parliament.

The last sentence of the second paragraph on page 5 states, “The team lead of the European
Union (EU)’s Euralius Project…, said that the Ministry of Justice has only one permanent person
in its IT department, which is not adequate to oversee court IT infrastructure.” We find this
statement from the team lead of Euralius to be inaccurate. As indicated above, the IT
Department is composed of 7 persons, with whom we have had very good working relationships
since the beginning of this project.


Recommendation 2. We recommend that USAID/Albania implement a written plan to work
with the Albanian Government to resolve the impasse within the Chamber of Mediators and to
establish it as a functioning organization.

       USAID/Albania’s response: The Chamber of Mediators was established on July 7,
       2013. It has been duly registered with tax authorities and is already operational.
       USAID, through the JuST Project, intends to support the newly established Chamber in
       the upcoming project year to increase its organizational and financial capacities.

The impasse because of disagreement over member voting rights was resolved in July, 2013 by
a decision of the MOJ to limit the voting rights to the licensed mediators who were also duly
registered in the Mediator’s Registry of the MOJ. A licensed mediator can be registered in the
Mediators’ Registry only after he/she/it is duly registered with Albanian tax authorities. We
believe the MOJ took the right approach in that only duly registered mediators (those who are
also registered with tax authorities) can be considered active mediators, and therefore, can
have decision making powers in the Chamber of Mediators.


Recommendation 3. We recommend that USAID/Albania develop a written plan for the
National Chamber of Advocates to create a training department capable of managing a
nationwide continuing legal education program. That plan should (1) set clear milestones and
(2) condition future USAID support on achieving those milestones.

       USAID/Albania’s response: We agree with the recommendation. USAID in
       cooperation with the National Chamber of Advocates (NCA) will have developed a
       written plan with clear milestones for the creation of the training department by
       December 31, 2013. If the NCA fails to achieve those milestones, USAID will terminate
       assistance to the NCA. If NCA fully cooperates in this endeavor, we expect that the
       NCA will have a training department in place and capable of taking over the CLE and
       expanding it nationwide by the end of CY 2014.

The need for a training department to oversee and facilitate the implementation of CLE was
initially provided for in the Memorandum of Understanding (MOU) of May 12, 2011 between


                                                                                                 16
                                                                                         Appendix II


USAID and the NCA. According to that MOU, the NCA was to establish the training department
two years ago. As of today the NCA has not yet established a training department capable of
managing the CLE. Some of the functions expected to be carried out by this department were,
as a result, exercised by the training provider in cooperation with the local chambers. In the
absence of a functional training department and any plans for the roll out of the CLE, it is very
unlikely that the CLE will extend nationwide in its third year, as contemplated by the MOU.

As we approach the third and the last year of our funding for the CLE in accordance with Item 6
of the MOU, the action plan for the training department becomes a necessity for the
continuation and sustainability of the CLE beyond our assistance. The MOU already has a
provision indicating USAID’s intention to terminate support for the program by the third year
unless an action plan for its implementation throughout Albania is adopted.

During the initial years of implementation of CLE, we have been building the necessary
demand. The more lawyers we are training, the more we are increasing the pressure on the
NCA to assume its responsibilities. Ultimately, we believe that it is not USAID funding that will
be the determining factor, especially since the NCA does not have financial difficulties, as the
report correctly notes. It is the demand from lawyers themselves who have come to value and
depend upon CLE that will make the activity self-sustaining.

Currently, the NCA’s efforts are focused on the establishment of the School of Advocates, which
is also charged with the administration of the CLE. We believe that the establishment of the
training department fits very well with those efforts, and can serve as an interim solution until the
School is established, and it can be later transferred within the School once it is in place.


Recommendation 4. We recommend that USAID/Albania implement a performance
management plan by the fall of 2013.

       USAID/Albania’s response: We agree with the recommendation. The Mission hosted
       a PMP workshop the last week of July 2013 and is planning to complete the Mission-
       wide PMP during the first two weeks in September 2013. The Mission will have a
       cleared and approved PMP in place to track performance of its CDCS by November 30,
       2013.




                                                                                                  17
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
